1850 NORTH CENTRAL AVENUE, SUITE 1400
PHOENIX, AZ 85004-4568
TELEPHONE: 602-285-5000
FACSIMILE: 844-670-6009
http://www.dickinsonwright.com

BENNETT EVAN COOPER
BCooper@dickinsonwright.com
602-285-5044

November 10, 2020
Clerk of the Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re:

Jack Daniel’s Properties, Inc. v. VIP Products LLC, No. 20-365:
Request for Further Extension of Time for Opposition to Petition for Certiorari

Dear Sir:
Respondent VIP Products LLC, by its undersigned counsel, respectfully requests a thirtyday extension of time to December 18, 2020, to file its response to the Petition for a Writ of
Certiorari filed by petitioner Jack Daniel’s Properties, Inc. The petition was filed on September
15, 2020, and docketed on September 18, 2020, and, as a result of a prior extension granted by the
Court, VIP Products’ response is currently due on November 18, 2020.
VIP Products respectfully submits that good cause exists for its requested extension. The
two principal attorneys who have represented VIP Products in this action suffered deaths of close
relatives in November 2020, in each case requiring travel and impeding their participation in the
preparation of VIP Products’ response.
In addition, as the result of the coronavirus pandemic and the recent spike of COVID-19
cases in Arizona, its counsel’s access to their law offices still remains highly restricted, and counsel
and staff are in most cases working remotely; one principal attorney for VIP Products is working
remotely from a residence in another state. Among other things, this has precluded counsel from
working together and hindered the preparation of VIP Products’ response.
Finally, counsel has conflicting briefing schedules in several other matters, including a
motion to dismiss an appeal on jurisdictional grounds in a school-desegregation case pending
before the U.S. Court of Appeals for the Ninth Circuit; briefing of federal Indian tax preemption
issues in the Arizona Court of Appeals; as well as extensive remand and dispositive motion
practice in fast-moving COVID-19 insurance coverage actions pending in state and federal courts
around the country, including in California, Texas, Florida, New Hampshire, and New Jersey. VIP
Products’ counsel is exercising diligence in the preparation of the response, and this extension is
not sought for purposes of delay.

ARIZONA
NEVADA

OHIO

CALIFORNIA
TENNESSEE

FLORIDA
TEXAS

KENTUCKY
TORONTO

MICHIGAN
WASHINGTON DC

DICKINSON WRIGHT PLLC

Jack Daniel’s Properties, Inc. v. VIP Products LLC
No. 20-365
November 10, 2020
Page 2

Respectfully submitted,

Bennett Evan Cooper
Counsel of Record
David G. Bray
David N. Ferrucci
DICKINSON WRIGHT PLLC
1850 N. Central Avenue, Suite 1400
Phoenix, Arizona 85004
Attorneys for Respondent VIP Products LLC
Copy served by email this 10th day of
November, 2020, on the following:
Lisa S. Blatt
Amy Mason Saharia
Matthew B. Nicholson
Thomas S. Chapman
Williams & Connolly LLP
725 Twelfth Street, NW
Washington, D.C. 20005
Theodore H. Davis Jr.
Kilpatrick Townsend & Stockton LLP
1100 Peachtree Street NE, Suite 2800
Atlanta, GA 30309
Dennis L. Wilson
Kilpatrick Townsend & Stockton LLP
1801 Century Park East, Suite 2300
Los Angeles, CA 90067
Isaac S. Crum
Rusing Lopez & Lizardi, PLLC
16427 N. Scottsdale Road, Suite 200
Scottsdale, AZ 85254

ARIZONA
NEVADA

OHIO

CALIFORNIA
TENNESSEE

FLORIDA
TEXAS

KENTUCKY
TORONTO

MICHIGAN
WASHINGTON DC

